 Evaluation of FDIC Regional
             Copier Program
                Evaluation Report No. 99-007
                    September 30, 1999         Go to Appendix II




Office of Congressional Relations and Evaluations
           Office of Inspector General
                                                       Contents
Table of Contents                                 Page
•   Objectives                                    5
•   Results in Brief                              7
•   Results of Analysis: Dallas Regional Office   9
•   Results of Analysis: San Francisco
    Regional Office                               20
•   Conclusions                                   32
•   Recommendations                               33
•   Corporation Comments and OIG Evaluation       34
•   Appendix I: Corporation Comments              35
•   Appendix II: Management Response to
    Recommendations                               37

                                                              4
                                                              Objectives
•   During our recent evaluation of the     •   Our objectives were to determine
    FDIC headquarters copier program            whether:
    (EVAL-99-004), the Acquisition               3 Copiers were being utilized at
    and Corporate Services Branch                   appropriate levels,
    (ACSB) asked us to review copier
    programs at selected regional                3   Program costs were
    offices.                                         reasonable, and

•   We initially selected the Dallas             3   Alternative programs could
    Regional Office (DRO) for review.                provide cost savings.

•   Subsequently, a San Francisco
    facilities representative asked us to
    review the San Francisco Regional
    Office (SFRO) copier program.

                                                                                    5
                                                     Methodology
•   We obtained cost and meter         •   We estimated program costs using
    reading information for DRO and        alternative copier scenarios.
    SFRO convenience copiers. We
    did not attempt to verify the      •   For the purposes of this report, all
    accuracy of these readings.            references to “DRO” and “SFRO”
                                           include all convenience copiers in
•   We interviewed DRO and SFRO            the regional office buildings and in
    facilities representatives via         all associated field office locations,
    telephone to understand their          unless otherwise noted.
    copier programs.
                                       •   We performed our field work from
•   We determined utilization levels       May through July 1999 in
    and per copy charges for all           accordance with the President’s
    convenience copiers.                   Council on Integrity and
                                           Efficiency’s Quality Standards for
                                           Inspections.
                                                                                6
                                                     Results in Brief
Dallas Regional Office                      •   Accordingly, FDIC could reduce
•   We found that most DRO copiers              copier costs by pursuing other lease
    were significantly underutilized. On        options. Over a 5-year period, we
    average, 92 percent were operating at       estimated DRO could save:
    less than 40 percent of their monthly
    optimal volume levels.                       3   $213,000 by using a GSA
                                                     schedule distributor as Atlanta
•   As a result, DRO was paying an                   CSB has done,
    average of $.05 per copy for
    machines under Lease to Ownership            3   $980,000 by transferring to a
    Plans (LTOP). A General Services                 GSA schedule flat-rate plan, or
    Administration (GSA) representative
    told us $.03 is the most agencies            3   $430,000 by signing an
    should pay for copies.                           interagency agreement with the
                                                     Franchise Business Activity
                                                     (FBA).
                                                                                   7
                                                  Results in Brief
San Francisco Regional Office            •   SFRO could reduce copier costs by
• Most SFRO convenience copiers              pursuing other lease options. Over
   were significantly underutilized.         a 5-year period, we estimated
   On average, 82 percent of SFRO            SFRO could save:
   copiers were operating at less than
   20 percent of their monthly optimal        3   $206,000 by using a GSA
   volume levels.                                 Schedule distributor as Atlanta
                                                  CSB has done,
•   As a result, SFRO was paying an
    average of $.06 per copy, not             3   $469,000 by transferring to a
    including supplies, twice what the            GSA Schedule flat-rate plan.
    GSA recommends.
                                              3   $343,000 by signing an
•   We also concluded that SFRO’s                 interagency agreement with the
    inventory of copiers did not match            FBA.
    SFRO’s true copier needs.
                                                                                  8
  Results of Analysis:
Dallas Regional Office




                         9
                                                         Background
•   As of February 1999, DRO had 107 convenience copiers.

•   Of the total, 85 convenience copiers were under LTOP. Most of these copiers
    were Xerox 5352 machines. DRO also had eight Oce´ copiers, one Sharp
    copier, and one Canon copier.

•   Over 93 percent of DRO's copiers were located in two regional office
    buildings (Pacific Place and One Dallas Center). The remaining eight
    machines were in DRO’s eight field office locations.

•   As of February 1999, DRO was paying approximately $493,946 annually for
    its convenience copiers, or $41,162 a month.




                                                                              10
                                                          Copier Utilization
•   Based on our analysis, we                                      Percent of Copier Utilization
    concluded that most of DRO
                                                    70
    copiers were significantly
    underutilized.                                  60

                                                    50
•   On average, 92 percent of DRO
    convenience copiers operated at                 40




                                          Copiers
    less than 40 percent of their
                                                    30
    monthly optimal volume levels.
                                                    20
•   64 percent of the DRO copiers
                                                    10
    operated at less than 20 percent of
    their optimal volume levels.                    0
                                                         9%




                                                                                                         +
                                                                   %


                                                                            %


                                                                                      %


                                                                                                %

                                                                                                    0%
                                                              -39


                                                                       -59


                                                                                  -79


                                                                                            -99
                                                    0-1




•   Only two copiers had a utilization




                                                                                                    10
                                                              20


                                                                       40


                                                                                 60


                                                                                           80
    level greater than 60 percent.
                                                                                LTOP      Owned
                                                                                                             11
                                    Copier Cost-Per-Copy
•   According to a GSA representative,                         Average Cost-Per-Copy for Copiers
    $.03 per copy is realistically the             60
    most that government agencies
    should be willing to pay for                   50
    copiers. Per copy rates include
    LTOP, maintenance, per copy                    40
    charges, and supplies.



                                         Copiers
                                                   30
•   DRO was paying more than $.03
                                                   20
    per copy for 52 percent of its
    convenience copiers. On average,
                                                   10
    DRO was paying $.04 per copy
    overall, and $.05 per copy for                  0
    equipment under LTOP
                                                         03

                                                                    06

                                                                               09

                                                                                          12

                                                                                                     15


                                                                                                               5
                                                                                                            $.1
    agreements. These figures did not
                                                      1-.

                                                                 4-.

                                                                            7-.

                                                                                       0-.

                                                                                                  3-.

                                                                                                         er
                                                   $.0

                                                              $.0

                                                                         $.0

                                                                                    $.1

                                                                                               $.1

                                                                                                       Ov
    include supplies cost.
                                                                               LTOP            Owned               12
                           Copier Supply -vs- Demand
•   Officials from other agencies and     •   However, we concluded the copier
    other FDIC offices told us monthly        models that DRO had in its
    meter readings are crucial to             inventory did not match DRO’s
    assessing the placement and type of       true copier needs.
    machines that are needed.
                                          •   As the figure on the following page
•   DRO convenience copiers offered           shows, the optimal monthly volume
    volume levels as low as 40,000            levels of DRO’s copiers (supply)
    copies a month to as much as              far exceeded DRO’s actual
    350,000 copies a month.                   monthly copying volumes
                                              (demand).
•   To its credit, DRO was taking
    consistent meter readings.            •   Generally, the DRO field offices
                                              had a greater disparity between
                                              copier supply and demand than
                                              copiers located in the regional
                                              office buildings.                  13
                          Copier Supply -vs- Demand
          Comparison of Optimal Volume Levels of DRO Copiers (Supply) to
                    Average Actual Copier Volumes (Demand)
          100
           90
           80
           70
           60
Copiers




           50
           40
           30
           20
           10
            0
                1-15K     15-30K    30-45K    45-60K   Over 60K

                                   Monthly Volume                 Supply   Demand


                                                                               14
                      Lease-Ownership Alternatives
•   We identified a number of lease-    •   All scenarios assume keeping the
    ownership options for procuring         22 owned machines and explore
    copiers. This report presents our       alternatives for replacing the
    analysis of three options:              remaining 85 leased machines.

     3   FDIC Atlanta CSB lease of      •   All scenarios include penalties for
         copier equipment,                  the early termination of LTOP.
     3   GSA Schedule Flat-Rate
         Monthly Fee (FRMF) plan        •   Scenarios also include a factor for
         with Canon, and                    the trade-in value associated with
     3   FBA Cost-Per-Copy (CPC)            LTOP machines.
         Plan.
                                        •   Finally, some plans include
                                            supplies cost, while other plans,
                                            such as LTOP and the Atlanta
                                            lease, do not.
                                                                                15
                                     Atlanta Office Scenario
•   Atlanta Corporate Services Branch       •   We calculated the costs of DRO
    (CSB) signed a contract, effective          converting to the terms of the Ikon
    February 1998, with a distributor,          Atlanta contract. Including
    Ikon Office Solutions, Inc., to lease       termination costs, we estimated
    copiers for the Atlanta and                 DRO could save approximately
    Memphis offices and 25 field                $213,000 over a 5-year term.
    offices. The lease had one base
    year and four 1-year options.           •   DRO could achieve greater savings
                                                by consolidating underutilized
•   Ikon placed 49 Ricoh Aficio 500             machines. For example, DRO
    copiers throughout the region at an         could save an additional $156,000
    annual expense of about $230,000.           over a 5-year term by eliminating
    The Aficio 500 was a digital copier         10 of its Xerox 5352 machines.
    with an optimal monthly volume              However, such actions should only
    level of 85,000 copies. It was              be taken after considering clients’
    comparable to the Xerox DC265,              needs and analyzing copier
    but cost about $660 a month less.           placement.                         16
                                   Atlanta Office Scenario
•   Atlanta awarded the contract from    •   Further, the Aficio 500 was a
    the GSA schedule. Thus, the              digital machine. All of DRO’s
    contract had the standard GSA            copiers were analog machines
    terms and conditions, or better          which did not employ digital
    terms. For example, Atlanta paid         technology.
    3 months of the lease amount to
    terminate copiers during the             Scenario      5-Year Cost    Total Monthly
    contract, or no penalty if                                            Volume
    termination occurred at the end of       Current       $1.8 million    5.7 million
                                             LTOP
    the contract or option year. We
    found that most commercial leases        Atlanta       $1.6 million    7.2 million
                                             Office
    had no termination options or            Distributor
    imposed severe penalties for early
    termination.



                                                                                          17
         GSA Flat-Rate Scenario With Canon
•   A number of vendors also offered   •   Including termination costs, we
    FRMF programs under the GSA            estimated FDIC could save
    Federal Supply Schedule (FSS).         $980,000 under the Canon FRMF
                                           program over a 5-year term.
•   FRMF programs offered copier
    configurations in several volume
    bands and charged a FRMF for            Scenario   5-Year Cost       Total Monthly
                                                                         Volume
    each machine which included the
    lease and maintenance fee, CPC          Current       $1.8 million    5.7 million
                                            LTOP
    charges, and non-paper supplies.
                                            Canon         $0.8 million    3.2 million
                                            FRMF
•   Canon offered FRMF terms of 36,
    48, and 60 months with seven
    volume bands and 16 copier
    models, including two digital
    models.
                                                                                        18
                                                           FBA Scenario
•   The FBA is a government-wide          •   For the purposes of our analysis we
    program sponsored by the                  used a rate of $.0295 per copy,
    U.S. Department of the Treasury to        based on the pricing that FBA
    provide consolidated administrative       quoted FDIC HQ. This rate could
    support to participating agencies.        change given DRO’s average
                                              monthly volume levels.
•   At the time of our review,
    approximately 65 agencies used        •   Including termination costs, we
    FBA’s CPC program to procure              estimated that FDIC could save
    copiers.                                  $430,000 over the 5-year term.

                                              Scenario     5-Year Cost      Total Monthly
•   Further, FDIC had signed                                                Volume
                                              Current        $1.8 million     5.7 million
    interagency agreements with FBA           LTOP
    for its HQ convenience and                FBA            $1.4 million    3.9 million
    production copier program.                (@ $.0295)


                                                                                            19
          Results of Analysis:
San Francisco Regional Office




                             20
                                                         Background
•   As of March 1999, SFRO had 34 convenience copiers of which 10 were
    owned. Two copiers were leased on a cost-per-copy basis through an inter-
    agency agreement (IAA) with the FBA. The remaining 22 were under LTOP
    with Xerox (10 copiers), Kodak (six copiers), Oce´ (five copiers) and
    Gestetner (one copier).

•   Eight of the LTOP copiers were located in the regional office. The remaining
    14 machines were located in the field offices.

•   As of March 1999, the SFRO was paying approximately $161,016 annually, or
    $13,418 per month, for the 22 copiers under LTOP agreements.




                                                                               21
                                                       Copier Utilization

                                                                Percent of Copier Utilization
•   Based on our analysis, we
    concluded that a number of SFRO               30
    copiers were significantly
                                                  25
    underutilized.
                                                  20
•   On average, 82 percent of SFRO


                                        Copiers
                                                  15
    convenience copiers were
    operating at less than 20 percent             10
    of their monthly optimal volume
    levels.                                        5

                                                   0
                                                      %


                                                              9%


                                                                       9%


                                                                                9%


                                                                                          9%



                                                                                                    +
                                                                                                0%
                                                    19


                                                           -3


                                                                    -5


                                                                             -7


                                                                                       -9
                                                  0-




                                                                                               10
                                                          20


                                                                   40


                                                                            60


                                                                                      80
                                                               Owned    LTOP         IAA (FBA) Lease

                                                                                                        22
                                    Copier Cost-Per-Copy
•   According to a GSA representative,                         Average Cost-Per-Copy for Copiers
    $.03 per copy is realistically the              8
    most that government agencies
    should be willing to pay for                    7
    copiers. Per copy rates include                 6
    LTOP, maintenance, per copy
                                                    5
    charges, and supplies.



                                         Copiers
                                                    4
•   SFRO was paying more than $.03                  3
    per copy for 76 percent of its 34
                                                    2
    convenience copiers. On average,
    the SFRO was paying $.06 per                    1
    copy overall and $.07 per copy for              0
    equipment under lease agreements.
                                                         03

                                                                    06


                                                                               09

                                                                                          12


                                                                                                     15


                                                                                                              5
                                                                                                           $.1
    These figures did not include
                                                      1-.

                                                                 4-.


                                                                            7-.

                                                                                       0-.


                                                                                                  3-.

                                                                                                        er
                                                   $.0

                                                              $.0


                                                                         $.0

                                                                                    $.1


                                                                                               $.1
    supplies cost.




                                                                                                      Ov
                                                                     Owned          LTOP         IAA Lease        23
                           Copier Supply -vs- Demand
•   Officials from other agencies and     •   However, we concluded the copier
    other FDIC offices told us monthly        models SFRO had in its inventory
    meter readings are crucial to             did not match SFRO’s true copier
    assessing the placement and type of       needs.
    machines that are needed.
                                          •   As the figure on the following page
•   SFRO convenience copiers offered          shows, the optimal monthly volume
    volume levels as low as                   levels of SFRO copiers (supply) far
    10,000 copies a month to as much          exceeded SFRO’s actual monthly
    as 350,000 copies a month.                copying volumes (demand).

•   To its credit, SFRO was taking
    consistent meter readings.




                                                                              24
                        Copier Supply -vs- Demand

   Comparison of Optimal Volume Levels of Existing SFRO Convenience
     Machines (Supply) to Average Actual Copier Volumes (Demand)
          35

          30

          25
Copiers




          20

          15

          10

          5

          0
               1-15K   15-30K   30-45K    45-60K   Over 60K

                                Monthly Volume                Supply   Demand



                                                                            25
                      Lease-Ownership Alternatives
•   We identified a number of lease-    •   All scenarios assume keeping the
    ownership options for procuring         10 owned machines and explore
    copiers. This report presents our       alternatives for replacing the
    analysis of three options:              remaining 24 leased machines.

     3   FDIC Atlanta lease of copier   •   All scenarios include penalties for
         equipment,                         the early termination of LTOP.
     3   GSA Schedule FRMF plan
         with Canon, and                •   Scenarios also include a factor for
     3   FBA CPC plan.                      the trade-in value associated with
                                            LTOP machines.

                                        •   Finally, some plans include
                                            supplies cost, while other plans,
                                            such as LTOP and the Atlanta
                                            lease, do not.
                                                                                26
                                     Atlanta Office Scenario
•   Atlanta CSB signed a contract,           •   We calculated the costs of SFRO
    effective February 1998, with a              converting to the terms of the Ikon
    distributor, Ikon Office Solutions,          Atlanta Contract. Including
    Inc., to lease copiers for the Atlanta       termination and supplies costs, we
    and Memphis offices and 25 field             estimated FDIC could save
    offices. The lease had one base year         approximately $205,976 over a
    and four 1-year options.                     5-year term.

•   Ikon placed 49 Ricoh Aficio 500          •   This savings amount assumed
    copiers throughout the region at an          replacing all 24 existing LTOP and
    annual expense of about $230,000.            CPC copiers with Aficio 500
    The Aficio 500 was a digital copier          copiers. Because the monthly
    with an optimal volume range of              volume levels on SFRO copiers are
    about 85,000 copies per month. It            rather low, Ikon could likely
    was comparable to the Xerox DC265,           provide more lower capacity
    but cost about $660 a month less.            machines at lower costs and
                                                 achieve additional savings.     27
                                   Atlanta Office Scenario
•   Atlanta awarded the contract from    •   Further, the Aficio 500 was a
    the GSA schedule. Thus, the              digital machine. Most SFRO
    contract had the standard GSA            copiers were analog machines
    terms and conditions, or better          which did not employ digital
    terms. For example, Atlanta paid         technology.
    3 months of the lease amount to
    terminate copiers during the
                                              Scenario      5-Year     Total Monthly
    contract, or no penalty if                              Cost       Volume
    termination occurred at the end of        Current       $688,368      2.5 million
    the contract or option year. We           LTOP
    found that most commercial leases         Atlanta       $482,392      2 million
    had no termination options or             Office
                                              Distributor
    imposed severe penalties for early
    termination.



                                                                                        28
        GSA Flat-Rate Scenario With Canon
•   A number of vendors also offered •   Including termination costs, we
    FRMF programs under the GSA FSS.     estimated FDIC could save almost
                                         $469,301 under the Canon FRMF
•   FRMF programs offered copier         program over a 5-year term.
    configurations in several volume
    bands and charged a FRMF for each
                                          Scenario   5-Year     Total Monthly
    machine which included the lease                 Cost       Volume
    and maintenance fee, CPC charges,
                                          Current    $688,368     2.5 million
    and non-paper supplies.               LTOP

                                          Canon      $219,067      .8 million
•   Canon offered FRMF terms of 36,       FRMF
    48, and 60 months with seven
    volume bands and 16 copier models,
    including two digital models.



                                                                                29
                                                           FBA Scenario
•   The FBA is a government-wide          •   For the purposes of our analysis we
    program sponsored by the                  used a rate of $.0295 per copy,
    U.S. Department of the Treasury to        based on the pricing that FBA
    provide consolidated administrative       quoted FDIC HQ. This rate would
    support to participating agencies.        probably change given SFRO’s
                                              average monthly volume levels.
•   At the time of our review,
    approximately 65 agencies used        •   Including termination costs, we
    FBA’s CPC program to procure              estimated that SFRO could save
    copiers.                                  $343,114 over the 5-year term.

                                               Scenario     5-Year Cost   Total Monthly
•   Further, FDIC had signed                                              Volume
    interagency agreements with FBA for        Current       $688,368         2.5 million
                                               LTOP
    its HQ convenience and production          FBA           $345,254          1 million
                                               (@$.0295)
    copier program.

                                                                                            30
    Analysis of Leased -vs- Owned Copiers
•   We understand that SFRO intends       •   However, we concluded that it
    on replacing all leased and owned         would be more cost effective for
    copiers with new copiers over the         SFRO to replace all of its owned
    next 2 years. We analyzed                 and leased machines because
    whether it would be more cost             maintenance and CPC charges for
    effective for SFRO to:                    SFRO’s owned equipment are
     3 retain its existing owned              more expensive than lease,
        copiers and replace only leased       maintenance, and CPC charges
        copiers, or                           would be for rightsized equipment.
     3 replace all owned and leased
        copiers.                          •   We estimated that SFRO could
                                              save an additional $58,055 to
•   On the surface, it appears more           $156,344 over a 5-year period by
    economical to keep the owned              replacing owned copiers with
    copiers and avoid incurring LTOP          equipment from one of the three
    costs.                                    alternatives detailed in this report.
                                                                                  31
                                                          Conclusions
•   DRO and SFRO convenience copiers appeared to be significantly
    underutilized. As a result, on an average cost-per-copy basis, both regions
    were paying more than what government and industry sources suggest as
    reasonable.

•   Moreover, other lease and ownership plans existed that could reduce DRO’s
    and SFRO’s program costs over a 5-year contract period and place machines
    that more appropriately match the offices’ needs.

•   Further, DRO could achieve additional savings by consolidating copiers that
    were significantly underutilized.

•   Finally, SFRO could achieve additional savings by following through with its
    intent to replace its owned machines with rightsized leased machines from one
    of the alternatives presented in this report.

                                                                                  32
                                            Recommendations
We recommended that the Director, Division of Administration:

    1. Take actions to more closely align the types and placement of equipment
       in DRO’s and SFRO’s copier programs with each region’s copying
       demands.

    2. Analyze the available convenience copier contract vehicles and scenarios
       and select the ones that provide the best value for DRO and SFRO.




                                                                              33
                     Corporation Comments and
                                OIG Evaluation
•   The Director, DOA, provided the         •   DOA’s written response indicated
    Corporation’s written response to a         that DRO and SFRO would review
    draft of this report. The response is       how best to realign equipment and
    presented as Appendix I to this             the regions agreed to review
    report. DOA agreed with both of             alternative programs during 2000.
    our recommendations. DOA’s                  Accordingly, we cannot quantify
    written response describing actions         funds put to better use from our
    already taken and planned actions           recommendations at this time.
    provided the requisite elements of          Should future DOA actions result
    management decisions for both of            in program savings, we will report
    our report recommendations.                 those monetary benefits in our
                                                Semiannual Report to the Congress
                                                during the appropriate reporting
                                                period.



                                                                                34
Appendix I: Corporation
             Comments




                      35
Corporation Comments




                   36
